LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-925: SEBHAT AFEWORK, M.D. V. VELANTA MONIQUE BABBITT, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Supplemental Brief
to the Petition for Writ of Certiorari referenced above contains 301 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of May 2021.

